                   Department of Veterans Affairs
                   Office of Inspector General


                     Office of Healthcare Inspections

Report No. 14-00934-221


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                 at 

       VA New York Harbor 

         Healthcare System 

        New York, New York 





August 1, 2014 


                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                    CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MH         mental health
                       MI         motivational interviewing
                       MM         medication management
                       NA         not applicable
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCMM       Primary Care Management Module
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                          CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    6

  DWHP Proficiency ..................................................................................................              7


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            8

  B. PACT Compass Metrics ....................................................................................                    10

  C. VISN Director Comments ..................................................................................                    14

  D. Facility Director Comments ...............................................................................                   15

  E. OIG Contact and Staff Acknowledgments .........................................................                              19

  F. Report Distribution .............................................................................................            20

  G. Endnotes ...........................................................................................................         21





VA OIG Office of Healthcare Inspections
                    CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted a site visit during the week of June 9, 2014, at the Harlem
CBOC, New York, NY, which is under the oversight of the VA New York Harbor
Healthcare System and Veterans Integrated Service Network 3.

Review Results: We conducted four focused reviews and made recommendations
in all of the review areas:

Environment of Care. Ensure that:

	   Personally identifiable information is protected by securing laboratory specimens
     during transport from the Harlem CBOC to the parent facility.

	   The information technology server closet at the Harlem CBOC is maintained
     according to information technology safety and security standards.

Alcohol Use Disorder. Ensure that CBOC/PCC Registered Nurse Care Managers:

	   Receive motivational interviewing and health coaching training within 12 months of
     appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	   Document that medication reconciliation was completed at each episode of care
     where the newly prescribed fluoroquinolone was administered, prescribed, or
     modified.

	   Consistently provide        written   medication   information    that   includes    the
     fluoroquinolone.

	   Provide medication counseling/education as required.

Designated Women’s Health Providers’ Proficiency. Ensure that:

	   All Designated Women’s Health Providers are designated with the women’s health
     indicator in the Primary Care Management Module.

Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 14–18, for the full text of the Directors’ comments.) We consider



VA OIG Office of Healthcare Inspections                                                      i
                    CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY


recommendations 2 and 7 closed. We will follow up on the planned actions for the open
recommendations until they are completed.




                                                        JOHN D. DAIGH, JR., M.D. 

                                                       Assistant Inspector General for 

                                                          Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                      ii
                        CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted an onsite inspection, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspection was only conducted at a randomly selected CBOC that had
not been previously inspected.1 Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                         1
                       CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH Primary Care Providers designated as DWHPs as of
                               October 1, 2012, and who remained as DWHPs until
                               September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                              CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a
We reviewed relevant documents and conducted a physical inspection of the Harlem CBOC.
The table below shows the areas reviewed for this topic. The areas marked as NM did not meet
applicable requirements and needed improvement. Any items that did not apply to this facility
are marked NA.
Table 2. EOC

NM                      Areas Reviewed                                     Findings
NA     The CBOC’s location is clearly identifiable from
       the street as a VA CBOC.
 NA    The CBOC has interior signage available that
       clearly identifies the route to and location of the
       clinic entrance.
 NA    The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g., MH
       clinic).
       Alcohol hand wash or soap dispenser and sink
       are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
 NA    The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.
       All medications are secured from unauthorized
       access.


VA OIG Office of Healthcare Inspections                                                               3
                             CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY


 NM              Areas Reviewed (continued)                                 Findings
  X    Personally identifiable information is protected   At the Harlem CBOC, personally identifiable
       on laboratory specimens during transport so        information was not protected on laboratory
       that patient privacy is maintained.                specimens during transport.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
 NA    The CBOC has a designated examination room
       for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
  X    The information technology network                 Access to the information technology network
       room/server closet is locked.                      room/server closet at the Harlem CBOC was
                                                          not documented.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the CBOC
       medical equipment in accordance with Joint
       Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendations

1. We recommended that managers ensure that personally identifiable information is protected
by securing laboratory specimens during transport from the Harlem CBOC to the parent facility.

2. We recommended that the information technology server closet at the Harlem CBOC is
maintained according to information technology safety and security standards.



VA OIG Office of Healthcare Inspections                                                                  4
                             CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 30 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                     Areas Reviewed                                        Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
       Diagnostic assessments are completed for
       patients with a positive alcohol screen.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 6 (17 percent) of 35 RN Care
       received MI training within 12 months of           Managers did not receive MI training within 12
       appointment to PACT.                               months of appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 7 (20 percent) of 35 RN Care
       received VHA National Center for Health            Managers did not receive health coaching
       Promotion and Disease Prevention-approved          training within 12 months of appointment to
       health coaching training (most likely TEACH        PACT.
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

3. We recommended that CBOC/PCC Registered Nurse Care Managers receive motivational
interviewing and health coaching training within 12 months of appointment to Patient Aligned
Care Teams.




VA OIG Office of Healthcare Inspections                                                                    5
                             CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 22 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 6 of 22 patients’ EHRs.
 X     Written information on the patient’s prescribed   We did not find documentation that
       medications was provided at the end of the        7 of 22 patients received written information that
       outpatient encounter.                             included the fluoroquinolone.
 X     Medication counseling/education for the           We did not find documentation of medication
       fluoroquinolone was documented in the             counseling that included the fluoroquinolone in
       patients’ EHRs.                                   5 of 22 patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.


Recommendations

4. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

5. We recommended that staff consistently provide written medication information that
includes the fluoroquinolone.

6. We recommended that staff provide medication counseling/education as required.




VA OIG Office of Healthcare Inspections                                                                       6
                             CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, PCMM data, and supporting
documentation for DWHPs’ proficiencies. The table below shows the areas reviewed for this
topic. The area marked as NM did not meet applicable requirements and needed improvement.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                      Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
 X     CBOC and PCC DWHPs were designated              Four of 10 DWHPs were not designated with the
       with the WH indicator in the PCMM.              WH indicator in the PCMM.

Recommendation

7. We recommended that the chief of staff consistently ensure that all Designated Women’s
Health Providers are designated with the women’s health indicator in the Primary Care
Management Module.




VA OIG Office of Healthcare Inspections                                                                7
                                                                    CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY
                                                                                                                                   Appendix A


                                                                     CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                       Uniques4                                     Encounters4

                                Station                    CBOC
       Location       State                 Locality5                    MH7        PC8        Other9       All        MH7         PC8       Other9       All
                                   #                        Size6
    Chapel St        NY        630GC       Urban         Mid-Size       2,940       1,398        549       3,748     24,061       2,753       2,309     29,123
    Staten Island    NY        630GB       Urban         Mid-Size         567       2,048      2,146       2,534      3,783       4,202       7,767     15,752
    Harlem           NY        630GA       Urban         Small            678         400        541       1,229      3,512         958       1,022      5,492




3
  Includes all CBOCs in operation before March 31, 2013. 

4
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                         8
                       CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.10

                                   Specialty Care                                               Tele-Health
             CBOC                                             Ancillary Services12
                                     Services11                                                 Services13
    Chapel St                           ---                   MOVE! Program14               Tele Primary Care

    Staten Island                    Optometry                 MOVE! Program                Tele Primary Care
                                      Podiatry                   Social Work
                                                                   Nutrition
                                                             Electrocardiography
    Harlem                                ---                         ---                   Tele Primary Care
 




10
    Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC.

11
    Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
    Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

13
    Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

14 
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                            9
                                                                  CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY
                                                                                                                                 Appendix B


                                                          PACT Compass Metrics




                                                                                                                                                                
Data Definition.e The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the
division level.
VA OIG Office of Healthcare Inspections                                                                                                                  10
                                                                   CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure. Blank cells indicate the absence of
reported data.


VA OIG Office of Healthcare Inspections                                                                                                                    11
                                                                  CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.

VA OIG Office of Healthcare Inspections                                                                                                                  12
                                                                  CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric. Blank cells indicate the absence of reported data.


VA OIG Office of Healthcare Inspections                                                                                                                   13
                    CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY
                                                                                   Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                Memorandum


           Date:       July 3, 2014

          From:        Director, NY/NJ Veterans Healthcare Network (10N03)

       Subject:        CBOC and PCC Reviews of the VA New York Harbor
                       Healthcare System, New York, NY

             To:       Director, Baltimore Office of Healthcare Inspections (54BA)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)



       1. 	 The responses to the Harlem Clinic CBOC review conducted the week
           of June 9, 2014 are being submitted for your review and consideration.

       2. Should you have any questions, please do not hesitate to contact Pam
          Wright, RN, MSN, VISN QMO at 718-741-4135.




       Michael A. Sabo, FACHE




VA OIG Office of Healthcare Inspections                                                    14
                    CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY
                                                                                   Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs 	                              Memorandum


           Date:       July 3, 2014

          From:        Director, VA New York Harbor Healthcare System (630/00)

       Subject: 	      CBOC and PCC Reviews of the VA New York Harbor
                       Healthcare System, New York, NY

             To:       Director, VA NY/NJ Veterans Healthcare Network (10N03)



       1. 	 VA New York Harbor Healthcare System (VANYHHS) appreciates the
           opportunity to review the draft report of recommendations from the OIG
           CBOC review conducted at the Harlem Street CBOC.

       2. 	 Please find responses to each recommendation provided in the report.
           I concur with the recommendations and corrective actions are in
           progress.

       3. 	 If you have any questions, please contact Kim Arslanian, Performance
           Improvement Manager at 718-630-2865.




       Martina A. Parauda, FACHE




VA OIG Office of Healthcare Inspections                                                    15
                    CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that managers ensure that personally
identifiable information is protected by securing laboratory specimens during transport
from the Harlem CBOC to the parent facility.

Concur

Target date for completion: 7/31/14

Facility response: The Harlem CBOC has a designated container for the transport of
laboratory specimens that protects personally identifiable information and a standard
operating procedure used by the Harlem staff. A refresher training on the standard
operating procedure will be completed by the end of July.

Recommendation 2. We recommended that the information technology server closet
at the Harlem CBOC is maintained according to information technology safety and
security standards.

Concur

Target date for completion: 6/10/14

Facility response: During the site review of the Harlem clinic on 6/9/14, the IT server
closet sign in sheet was noted to be missing. The sheet was replaced on 6/10/14.

Recommendation 3. We recommended that CBOC/PCC Registered Nurse Care
Managers receive motivational interviewing and health coaching training within
12 months of appointment to Patient Aligned Care Teams.

Concur

Target date for completion: 10/31/14

Facility response: Of the RN Care Managers that were cited as not receiving MI training
within 12 months of hire, half of them have now been trained. Another MI training is
scheduled for the fall, and will again indicate to the remaining three PACT RN Care
Mangers who have yet to attend, that they are expected at this mandatory session.
Similarly, several of the RN Care Managers cited for not attending the TEACH trainings,
were able to go to a later one (that fell after their 12 month hire date). Of those that still
require to go to this event, we are also holding another TEACH training in the fall and
we will again indicate to them that we expect them to participate.


VA OIG Office of Healthcare Inspections                                                    16
                    CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY


We will continue our efforts to ensure that all of our staff is appropriately trained both in
Motivational Interviewing and in Health Coaching by offering trainings at least every
6 months to all employees, with a particular emphasis on new hires who are less
familiar with the tenets of PACT and patient-centered care. 

Recommendation 4.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: 10/31/14

Facility response: Medical record cases cited during the OIG visit represented
prescriptions written during the time period of July 2012-June 2013. In March 2014, the
Pharmacy & Therapeutics Committee implemented a drug ordering template for
fluoroquinolone to ensure the appropriate clinical oversight and education to outpatients
prescribed oral fluoroquinolone antibiotics. Use of the template will be monitored
through ongoing medical record reviews.

Recommendation 5.         We recommended that staff consistently provide written
medication information that includes the fluoroquinolone.

Concur

Target date for completion: 10/31/14

Facility response: Medical record cases cited during the OIG visit represented
prescriptions written during the time period of July 2012-June 2013. In March 2014, the
Pharmacy & Therapeutics Committee implemented a drug ordering template for
fluoroquinolone to ensure written medication information that includes the
fluoroquinolone is provided to outpatients. Use of the template will be monitored
through ongoing medical record reviews.

Recommendation 6.           We recommended               that   staff   provide   medication
counseling/education as required.

Concur

Target date for completion: 10/31/14

Facility response: Medical record cases cited during the OIG visit represented
prescriptions written during the time period of July 2012-June 2013. In March 2014, the
Pharmacy & Therapeutics Committee implemented a drug ordering template for
fluoroquinolone to ensure medication counseling/education is completed for outpatients
prescribed fluoroquinolones. Use of the template will be monitored through ongoing
medical record reviews.



VA OIG Office of Healthcare Inspections                                                    17
                    CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY


Recommendation 7. We recommended that the chief of staff consistently ensure that
all Designated Women’s Health Providers are designated with the women’s health
indicator in the Primary Care Management Module.

Concur

Target date for completion: 6/24/14

Facility response: All current designated Women’s Health Providers have been
designated with the women’s health indicator (*WH*) in the Primary Care Management
module.




VA OIG Office of Healthcare Inspections                                                    18
                    CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY
                                                                                   Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Terri Julian, PhD, Team Leader
Contributors            Alison Loughran, JD, RN
Other                   Jennifer Christensen, DPM
Contributors            Sonia Whig, MS, LDN
                        Lin Clegg, PhD
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Melanie Oppat, MEd, LDN
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                    19
                    CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY
                                                                                   Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Director, VA NY/NJ Veterans Healthcare Network (10N03)
Director, VA New York Harbor Healthcare System (630/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Kirsten E. Gillibrand, Charles E. Schumer
U.S. House of Representatives: 	Yvette Clarke, Joseph Crowley, Michael Grimm,
 Carolyn Maloney, Carolyn McCarthy, Gregory Meeks, Jerrold Nadler, Charles B.
 Rangel, Nydia Velzquez


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                    20
                        CBOC and PCC Reviews at VA New York Harbor Healthcare System, New York, NY
                                                                                       Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    21
